HHS/OIG, Audit - "Review of Review of Mutual of Omaha Medicare Payments to Long-Term Care Hospitals From January Through May 2003," (A-01-07-00510)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Mutual of Omaha
Medicare Payments to Long-Term Care Hospitals From January Through May 2003," (A-01-07-00510)
July 9, 2007
Complete Text of Report is available in PDF format (911 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Mutual of Omaha (the Intermediary) paid
long-term care hospitals' (LTCH)
claims in accordance with Medicare requirements when beneficiaries had used all
of their regular covered benefit days.  The Intermediary did not always pay LTCH
claims in accordance with Medicare requirements when the beneficiaries had used
all of their regular covered benefit days.  As a result, the Intermediary made
overpayments totaling $374,945 for 33 claims to 21 LTCHs for services provided
from January 1 through May 31, 2003.  We recommended that the Intermediary
recover the $374,945 in overpayments and work with CMS to determine the
appropriate actions for recovering the portion of the overpayments related to
the beneficiaries coinsurance payments.  The Intermediary generally agreed to
implement our recommendations.